In the Supreme Court of the
United States
___________________
No. 19-635
DONALD J. TRUMP, PETITIONER
v.
CYRUS R. VANCE, JR., IN HIS OFFICIAL CAPACITY AS THE
DISTRICT ATTORNEY OF THE COUNTY OF NEW YORK,
ET. AL., RESPONDENTS
____________________
ON WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

___________________

BRIEF OF CLAIRE FINKELSTEIN AND
THE CENTER FOR ETHICS AND THE RULE OF LAW AT
THE UNIVERSITY OF PENNSYLVANIA
AS AMICI CURIAE SUPPORTING CYRUS R. VANCE,
RESPONDENT
RICHARD W. PAINTER

S. Walter Richey Professor of Corporate Law,
University of Minnesota,
Counsel of Record
229 19th Avenue South
Minneapolis, MN 55455
612-626-9707
rpainter@umn.edu

I

QUESTION PRESENTED
Whether a Sitting President Can Assert Executive
Privilege to Block a State Grand Jury Subpoena for
His Personal Financial Records Issued to a Thirdparty Custodian under Article II and the Supremacy
Clause of the U.S. Constitution.

II
TABLE OF CONTENTS
QUESTION PRESENTED ..................................... I
INTEREST OF THE AMICI................................... 1
STATEMENT ......................................................... 1
SUMMARY OF THE ARGUMENT ........................ 3
ARGUMENT .......................................................... 4
1. THE SOLICITOR GENERAL’S BRIEF AMICUS
CURIAE IN SUPPORT OF A PRESIDENT ACTING IN HIS
PRIVATE CAPACITY DESERVES LITTLE, IF ANY,
WEIGHT .....................................................................4
2. THE PRESIDENT’S ARTICLE II POWERS DO NOT
IMMUNIZE HIM FROM CRIMINAL INVESTIGATION ......6
A.
The Solicitor General’s Argument that the
Framers Supported Absolute Immunity for
Sitting Presidents is Historically Incorrect ........ 6
B.
The Solicitor General Incorrectly Assumes
that Article II of the Constitution Immunizes the
President from Criminal Indictment ................ 14
C.
The Assertion that a Sitting President
Cannot Be Indicted Does Not Entail that He
Cannot Be Investigated. .................................... 18
D.
Presidential Claims of Immunity Should
Be Limited to Protecting the Ability of the
President to Defend National Security ............. 21
3.

THE TENTH AMENDMENT PROTECTS THE RIGHT
OF STATES TO INVESTIGATE AND PROSECUTE CRIMES
WITHIN THEIR JURISDICTION ..................................23

III
4. IT IS INAPPROPRIATE FOR THE PRESIDENT TO
ASSERT IMMUNITY WITH REGARD TO STATE CRIMINAL
LAW PROCESSES CONDUCTED AGAINST THIRD
PARTIES ...................................................................27
THE ARGUMENT THAT THIS INVESTIGATION WILL
OFFICIAL
DUTIES IS NOT CREDIBLE……………………………..28
CONCLUSION ..................................................... 30
5.

IMPAIR THE PRESIDENT’S PERFORMANCE OF

IV
TABLE OF AUTHORITIES
CASES

Alden v. Maine, 527 U.S. 706 (1999) ....................... 24
Clinton v. Jones, 520 U.S. 681 (1997) .............. passim
Comm. on the Judiciary v. McGahn, 2019 U.S. Dist.

LEXIS 203983, __ F. Supp. 3d __, 2019 WL
6312011. .................................................................. 2
Erie R.R. v. Tompkins, 304 U.S. 64 (1938) ............. 24
Hamdi v. Rumsfeld, 542 U.S. 507 (2004) ................ 21

In Re Donald J. Trump Casino Securities Litigation,

7 F.3d 357 (3d Cir. 1993) ...................................... 27

Kansas v. Garcia, No. 17-834, slip op. (March 3,

2020) ...................................................................... 25
McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316
(1819) .................................................................... 24
Nixon v. Fitzgerald, 457 U.S. 731 (1982) ................. 7
Screws v. United States, 325 U.S. 91 (1945)........... 24
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819).............................................................. 27
United States v. Burr, 25 F. Cas. 30 ....................... 13
United States v. Nixon, 418 U.S. 683 (1974) ... passim
RULES
5 C.F.R. Section 2635.702 .......................................... 6
25 F. Cas. 30, 34. ...................................................... 22
520 U.S. 681, 696 (1997) .......................................... 13
ABA Model Rule 3.8 ................................................. 26
ABA Model Rules of Professional Conduct Rule 1.7 . 6
ABA Rules of Professional Conduct, Rule 3.3. ........ 17
Criminal Justice Standards for the Prosecution
Function (American Bar Association, Fourth
Edition 2017) ........................................................ 26
Federal Rules of Civil Procedure, Rule 11 .............. 17

V
New York Rules of Professional Conduct, Rule 3.8. 26
MISCELLANEOUS
Brett Kavanaugh, "Separation of Powers During the
Forty-Fourth Presidency and Beyond." 93 Minn. L.
Rev. 1454 (May 2009) ........................................... 20
Claire O. Finkelstein and Michael Skerker, eds.,

Sovereignty and the New Executive Authority

(2019) 145................................................................ 2
J. Elliot, Debates on the Federal Constitution 480
(2d ed. 1863) .......................................................... 13
James Madison, The Virginia Resolution of 1798 .. 11
John Dowd Memorandum on Voluntary Document
Production by the White House ........................... 19
Massachusetts State Constitution of 1780 ............... 2
Office of Legal Counsel Memoranda on A Sitting
President's Amenability to Indictment and
Criminal Prosecution Prosecution (Oct. 16, 2000)
............................................................................... 15
Office of Legal Counsel Memoranda on the
Amenability of the President, Vice President and
Other Civil Officers to Federal Criminal
Prosecution While in Office (Sept. 24, 1973) ....... 15
Petitioner’s Brief in Trump v. Vance, No. 19-365 ... 14
Second Circuit Audio of Oral Arguments in Trump v.
Vance, 19-3204 (October 23, 2019) ........................ 9
See Tr. Of Oral Arg. at 20:23-24-21:1-7 in Clinton v.
Jones, 520 U.S. 681 .............................................. 29
Toluse Olorunnipa and Beth Reinhard, "Trump
declares himself 'chief law enforcement officer,'"
Washington Post, February 19, 2020. ................. 19
William Maclay, Journal of William Maclay 166-67
(E. Maclay ed. 1890) ............................................... 9

1

INTEREST OF THE AMICI1
The Amici are members of the Center for Ethics
and the Rule of Law, a nonpartisan academic center

at the University of Pennsylvania dedicated to
preserving and promoting the rule of law in national
security and democratic governance. Amici are
focused on addressing rule of law violations that
threaten the security of the United States and
undermine democracy.
The Center is led by academics and
practitioners who are experts in national security law
and ethics and who are not united by party affiliation.
The Center has previously identified rule of law
violations in both Democratic and Republican
administrations.

STATEMENT
Amici offer this brief because of the grave
threat to the rule of law posed by increasing use of the
concepts of “absolute immunity” and “executive
privilege” on the part of U.S. executive branch

No counsel for either party had any role in drafting or
contributing money for the drafting of this brief. No person or
entity other than the amicus curiae, its members and counsel
made any monetary contribution to the preparation or
submission of this brief. The parties to the case filed blanket
consent motions on January 8, 2020 (Petitioner Trump),
January 15, 2020 (Respondent Mazars, USA LLP), and January
15, 2020, (Respondent Cyrus R. Vance).
1

2
officials.2 To ensure that the U.S. remains “a
government of laws, not men,” Massachusetts State
Constitution of 1780, it is imperative that officials
exercise their duties against the background of
publicly available mechanisms of accountability that
ensure compliance with their mandates. We have
already seen a concerning trend since the attacks on
9/11 towards an increasingly expansive conception of
executive authority. See Claire O. Finkelstein, “The
Imperial Presidency and the Rule of Law,” in Claire
O. Finkelstein and Michael Skerker, eds., Sovereignty
and the New Executive Authority (2019) 145. The
claims of presidential immunity made by President
Trump, his attorneys and the government in this case
continue this trend at an accelerated pace. They
threaten to eliminate accountability, not just for this
president, but for future presidents. Were this Court
to adopt the interpretation provided by the Petitioner
and in the Amicus Brief filed by the Solicitor General,
anyone occupying the office of the president would be
beyond the reach of state and federal judicial
processes. The risk is particularly great when the
claims of absolute presidential immunity are
extended, as is proposed here, to private businesses
merely because they are in possession of personal
financial records belonging to the President.
We believe accordingly that the Court will set
a dangerous precedent if it allows the President to
These claims are primarily presidential in nature but as we
have seen, other executive branch officials sometimes assert
immunity to subpoena on behalf of the President. See Comm. on
the Judiciary v. McGahn, 2019 U.S. Dist. LEXIS 203983, __ F.
Supp. 3d __, 2019 WL 6312011.
2

3
interfere with a state criminal law proceeding
directed to a private business, and that such
interference would strike a blow to the stability of
democratic governance. Of equal importance, the
progressive elimination of checks on the executive
branch poses increasing risks to the national security
of the United States.

SUMMARY OF THE ARGUMENT
The central defect with the position of the
Petitioner and the Solicitor General lies in its support
of President Trump’s assertion of absolute immunity
from criminal investigations under Article II of the
U.S. Constitution. This view of presidential authority
threatens to erode the rule of law. If left unchecked, it
will fundamentally alter the basic principles of
accountability on which our democracy depends. In
the absence of a constitutional basis for the proffered
claim of absolute presidential immunity, the rights of
states to investigate a sitting president who has
longstanding business and residential ties to that
state must remain undisturbed by the federal
government, as required by the Tenth Amendment.
Because the brief of the Solicitor General argues
vigorously that Article II provides the basis for an
unfettered assertion of absolute presidential
immunity, we pay particular attention to that amicus
brief in the discussion that follows.

4

ARGUMENT
1. THE SOLICITOR GENERAL’S BRIEF AMICUS
CURIAE IN SUPPORT OF A PRESIDENT ACTING IN
HIS PRIVATE CAPACITY DESERVES LITTLE, IF
ANY, WEIGHT
The Solicitor General submits amicus briefs to
the Court in a small number of the cases each year in
which the United States has an interest. While the
selective nature of its intervention is to be expected,
the Solicitor General has particular impact when he
does offer an opinion or enters a case.
It is worth noting that the Solicitor General’s
decision to intervene in this case does not appear to
be supported by the strongest and most legitimate
reasons for such intervention, namely that the case
involves a matter of critical importance to the
national interest.
Instead, the gravamen of
Petitioner’s action lies in the President’s desire to
conceal personal financial records and hence to evade
subpoenas issued in a criminal investigation under
the laws of the State of New York.3 Petitioner
The Solicitor General cites United States v. Nixon, , 418 U.S.
683 (1974) and Clinton v. Jones, 520 U.S. 681 (1997) two earlier
cases in which the Solicitor General submitted briefs to support
a presidential claim of privilege, but those cases are
distinguishable as the object of the subpoenas in those cases
were held within the White House or directly required the
participation of the president. Moreover, the Court rejected the
claim of executive privilege in both of those earlier cases. As
discussed later in this brief, the claim of executive privilege in
this case is weaker than that asserted in either of those cases.
The Solicitor General should not, at taxpayer expense, approach
3

5
therefore takes the position that he is entitled to
assert absolute immunity not just with respect to his
own person, but with respect to the operations of
private third parties.
Unusual as such an assertion of privilege may
be, the President’s attorneys argue that “The
subpoena must be treated as though it was sent
directly to the President.” Brief of Petitioner at 17.
Had that been the case, the Solicitor General would
have had a greater, though not dispositive, basis for
making its opinion known. But directed as this
subpoena is to outside third parties on a matter that
does not relate to the President’s duties to the
country, this is not a case in which the United States
could reasonably be said to have an interest, much
less a substantial interest.
A second concern with the Solicitor General’s
decision to intervene in this matter relates to
potential conflicts of interest. The Solicitor General
is a subordinate of the President acting in his official
capacity. Private lawyers represent Donald Trump in
his personal capacity. If, as seems likely, the
President demanded that the Solicitor General weigh
in for the purpose of advancing the President’s
personal interests and the interests of Trump
business entities, that would be a misuse of office. The
President should not enlist executive branch agencies
into service to benefit his personal interest in covering
up potential misdeeds of his private businesses or to

this Court with executive privilege arguments that are
demonstrably weaker than those this Court has already rejected.

6
advance his financial interests.4 Moreover, that same
principle would apply if the Solicitor General decided
sua sponte to assert itself into this case because it
thought the President would approve. An executive
branch agency should not be in the business of using
tax- payer dollars to support the President’s personal
and financial interests.
For the foregoing reasons, the brief Amicus
Curiae of the Solicitor General should be afforded
little, if any, weight in this matter.
2. THE PRESIDENT’S ARTICLE II POWERS DO NOT
IMMUNIZE HIM FROM CRIMINAL INVESTIGATION
A. The Solicitor General’s Argument that the

Framers Supported Absolute Immunity for
Sitting Presidents is Historically Incorrect

The Solicitor General makes a series of
unfounded, historically inaccurate and misleading
claims about the Framers’ intent in Article II. Given
that “original intent” is frequently introduced in favor
of presidential authority, it is critical to correct the
misimpression this brief creates. Against the
background of a fuller discussion of the debates of the
time, it is clear that the Framers were exceedingly
concerned to avoid precisely the view of presidential
authority advanced by the Solicitor General’s brief,
Arguably, the Solicitor General has run afoul of the ABA Model
Rules of Professional Conduct Rule 1.7 regarding concurrent
conflicts of interest, as well as under the Office of Government
Ethics regulations; see also 5 C.F.R. Section 2635.702, which
prohibits “use of public office for private gain.”
4

7
given that they were afraid of replicating the
monarchy they had just fought a war to reject. The
Framers were thus careful to rein in the power of the
president and to ensure that he was subject to checks
and balances of both the Congress and the states.
The Solicitor General argues, for example, that
“In Article II, the Framers contemplated that the
President would exercise his nationwide powers in
the interests of the whole Nation, without any risk of
interference by individual States.” Solicitor General's
Brief at 5. The brief offers no citation for this broad
and misleading generality. The brief also argues that
“The Founders understood Article II to protect the
‘independent functioning’ of the President’s unique
office, ‘free from risk of control, interference or
intimidation by other branches.’ Solicitor General's
Brief at 9, citing Nixon v. Fitzgerald, 457 U.S. 731, 760–
761 (1982). What evidence is there that in the face of
their concerns about creating another king the
Framers were simultaneously willing to immunize
the president against both the oversight of the other
branches of the federal government as well as against
the states?
In his brief Amicus Curiae, the Solicitor
General grounds this claim directly in the text of
Article II, yet he is unable to cite any judicial holding
supportive of this broad assertion of constitutional
authority.
Instead, he argues from vaguely
suggestive phrases drawn from the writings of some
of the Framers, including Thomas Jefferson and the
Journal of William Maclay. Solicitor General’s Brief
at 9.
Moreover, the Solicitor General misleadingly
introduces Senator Maclay as a source for

8
monarchical sentiment, implying that he was highly
favorable to presidential authority. Yet the text
suggests precisely the reverse, and it appears that the
brief is drawing on rhetorical passages in which
Maclay, a Democrat, is characterizing, and possibly
exaggerating, arguments made by some of his
political opponents in the Federalist party. The
Solicitor General’s distortion of original sources
would fail to meet the standards of academic
scholarship, let alone those for responsible legal
advocacy. A moment’s examination of Maclay’s text
will make this clear.
On September 26, 1789, Senator Maclay, a
Democrat, had an argument with Federalists Vice
President John Adams, Senator Oliver Ellsworth, and
Representative Fisher Ames on the relationship of the
president to the Judiciary and whether the president
was subject to the authority of the courts. Maclay
writes that following the departure of Ames from the
discussion,
[Adams and Ellsworth] said the
President, personally, was not the
subject of any process whatever; could
have no action whatever brought
against him; was above the power of all
judges, justices, etc. For what, said
they, would you put it in the power of a
common justice to exercise any
authority over him and stop the whole
machine of government? I said that,
although President, he is not above the
laws. Both of them declared you could
only impeach him, and no other process
whatever lay against him.

9

William Maclay, Journal of William Maclay 166-67
(E. Maclay ed. 1890), quoted in Impeachment or
Indictment: Is a Sitting President Subject to the Compulsory
Criminal Process? Hearings Before the Subcomm. On the
Constitution, Federalism, and Property Rights of the Senate
Comm, on the Judiciary, 105th Cong (1998).
The debate recorded in Maclay’s journal that
day then turns to precisely the topic under discussion
here, namely whether a sitting president could be
indicted before he had been impeached. Maclay was a
firm believer in the view that he could be, and made
this clear in a passage reminiscent of debates in this
case on oral argument in the Second Circuit Audio of
Oral Arguments in Trump v. Vance, 19-3204 (October
23, 2019):
I put the case: “Suppose the President
committed murder in the street.
Impeach him? But you can only remove
him from office on impeachment. Why,
when he is no longer President you can
indict him. But in the meantime he
runs away. But I will put up another
case. Suppose he continues his
murders daily, and neither House is
willing to impeach him?” Oh, the people
would arise and restrain him. “Very
well, you will allow the mob to do what
legal justice must abstain from.” Mr.
Adams said I was arguing from cases
nearly impossible. There had been
some hundreds of crowned heads
within these two centuries in Europe,

10
and there was no instance of any of
them having committed murder. Very
true, in the retail way, Charles IX of
France excepted. They generally do
these things on a great scale. I am,
however, certainly within the bounds of
possibility, though it may be
improbable.

Id. at 167.
The first and rather general question, namely
whether the president is “not the subject of any
process whatever; could have no action whatever
brought against him; was above the power of all
judges, justices, etc,” has been resolved. The president
is not above the law and is subject to the rulings of the
judges and justices, one of three coequal branches of
our government.
This Court has entertained
numerous cases in which the president is sued in his
official capacity. See e.g. United States v. Nixon, 418
U.S. 683 (1974). To the extent that Adams, Ames, and
Ellsworth argued anything to the contrary back in the
day, history has proven them wrong. But their
discussion is sufficient to demonstrate that even then
it was far from generally accepted that a sitting
president enjoys absolute immunity from legal
process.
The second question, namely whether a
president can be criminally indicted, has never been
decided by an Article III court. Could a president kill
someone in the street and avoid prosecution before he
is impeached and removed from office? Can he escape
justice if one third of the Senate plus one senator
refuses to convict him? Our current president has

11
boasted that he could shoot someone on Fifth Avenue
and get away with it, but this Court has never decided
this singular question, and thus at present there is no
basis for supposing that a president can claim
immunity to criminal indictment directly on the basis
of Article II of the Constitution.
In
addition,
the
Solicitor
General’s
characterization of Jefferson’s position, Brief of the
Solicitor General at 9, is an exaggeration, especially
as concerns what is at issue in this case, namely the
immunity of a sitting president to the exercise of the
police powers of the various states. Jefferson and
Madison, after all, drafted the famous Kentucky and
Virginia Resolutions which asserted that a state could
reject a federal law it believed to be unconstitutional.
See James Madison, The Virginia Resolution of 1798.
Madison and Jefferson were strong proponents of
states’ rights, and despite Jefferson’s later opposition
to the power of the Supreme Court over his
presidency, he was deeply committed to the view that
the states had the right to exercise independent
judgment on the constitutionality of actions of the
federal government that infringed on the states.
Once president, however, Jefferson was less
keen on the idea of subjecting the president to judicial
orders. Jefferson’s resistance of a subpoena in the
treason trial of Aaron Burr was rejected. In United
States v. Burr, John Marshall discussed the
difference between the U.S. president and the king of
England, saying that in the case of the king, “it is said
to be incompatible with his dignity to appear under
the process of the court. . ..” Whereas in the case of the
U.S. president, he wrote:

12
… it is not known ever to have been
doubted, but that the chief magistrate
of a state might be served with a
subpoena ad testificandum. If, in any
court of the United States, it has ever
been decided that a subpoena cannot
issue to the president, that decision is
unknown to this court.
. . ..
If, in being summoned to give his
personal attendance to testify, the law
does not discriminate between the
president and a private citizen, what
foundation is there for the opinion that
this difference is created by the
circumstance that his testimony
depends on a paper in his possession,
not on facts which have come to his
knowledge otherwise than by writing?
The court can perceive no foundation
for such an opinion. The propriety of

introducing any paper into a case, as
testimony, must depend on the
character of the paper, not on the
character of the person who holds it. A

subpoena duces tecum, then, may issue
to any person to whom an ordinary
subpoena may issue, directing him to
bring any paper of which the party
praying it has a right to avail himself
as testimony; if, indeed, that be the
necessary process for obtaining the
view of such a paper.

13

United States v. Burr, 25 F. Cas. 30 at 10–13

(emphasis added).
As the Burr court emphasized, the judgment
whether to issue a subpoena pertains to the relevance
of the material being subpoenaed, not to the identity
of the individual who must be sent such subpoena.
One hundred and ninety years later, the Clinton v.
Jones Court reinforced the same principle, writing
that “although the President "is placed [on] high,"
"not a single privilege is annexed to his character; far
from being above the laws, he is amenable to them in
his private character as a citizen, and in his public
character by impeachment." 520 U.S. 681, 696 (1997)
(quoting James Wilson’s speech at the Pennsylvania
Convention in 1787 in support of the Constitution J.
Elliot, Debates on the Federal Constitution 480 (2d
ed. 1863).
Clearly, the Framers had different views about
the president’s immunity to legal process, just as
views on this question continue to differ today. A brief
tour of the early debates about this question, however,
demonstrates that the description of presidential
immunity in the brief of the Solicitor General is
unnuanced and misleading. A more balanced
treatment would indicate that there was little doubt
among the Framers that the President was subject to
subpoena, and that the question whether the
President was subject to indictment was as
unresolved as the matter remains today.

14
B. The Solicitor General Incorrectly Assumes

that Article II of the Constitution
Immunizes the President from Criminal
Indictment

The Solicitor General assumes, but does not
argue, that the President is immune to indictment
and that this immunity stems directly from Article II.
He then argues that it follows that a sitting president
is also immune to investigation. Moreover, Petitioner
claims immunity from all forms of investigation,
including investigation by a state grand jury. The
argument is based on the suggestion that a sitting
president cannot be indicted combined with the
inference that if it is impermissible to indict a sitting
president, it is equally impermissible to investigate
him. Petitioner’s Brief in Trump v. Vance, No. 19-365,
6-9.
It the contention of Amici that the initial
premise is incorrect but that even if a sitting
president were immune to indictment, it would not
follow that he would also be immune to investigation.
Moreover, Amici assert that any claim of presidential
immunity is based on a series of pragmatic
considerations, and that there is no argument for such
immunity based solely on Article II.
Currently there is only one source of authority
for the claim that a sitting president cannot be
indicted, namely the Justice Department memo,
authorized by the Office of Legal Counsel (OLC) in
1973 at the time of the investigations into President
Nixon’s role in the Watergate scandal. This advice
was revised and repeated in 2000 after the
investigation into President Clinton’s conduct with

15
Monica Lewinsky.
Office of Legal Counsel
Memoranda on the Amenability of the President, Vice
President and Other Civil Officers to Federal
Criminal Prosecution While in Office (Sept. 24, 1973)
and Office of Legal Counsel Memoranda on A Sitting
President's Amenability to Indictment and Criminal
Prosecution (Oct. 16, 2000). The reasons given for
this conclusion are nearly entirely pragmatic, and as
such they are lacking in any constitutional dimension.
The OLC memoranda interpreting the law are
advisory only; they do not create binding legal
precedent that is owed deference by this Court. They
set out the internal policy of the Department of
Justice, and thus are binding only insofar as the
Justice Department chooses to regard them as such.
Moreover, the Justice Department is headed by
an Attorney General who was appointed by and
serves at the pleasure of the President. Even in the
absence of such an articulated policy, the Justice
Department would be unlikely to indict the President
to whom that agency is beholden, and thus the policy
comes as no surprise. But we find the President and
his Amici attempting to parlay an internal Justice
Department policy into a binding principle of
constitutional stature. The argument the Solicitor
General provides for this position is unconvincing at
best and dangerously misleading at worst.
The Solicitor General’s brief relies heavily on
stray remarks in a small number of cases regarding
executive privilege, such as Nixon v. Fitzgerald,
where Chief Justice Burger suggests in a concurrence
that the Founders understood Article II “to protect
the ‘independent functioning’ of the President’s
unique office,” Solicitor General's Brief at 9, citing
Nixon v. Fitzgerald, 457 U.S. at 760-761. Yet Nixon

16

v. Fitzgerald is completely irrelevant to the issue at

hand. In that case, the Supreme Court ruled 5-4 that
Nixon, by then a former president, "is entitled to
absolute immunity from damages liability predicated
on his official acts." Id. at 745. That has nothing to do
with the question of whether a sitting president can
be indicted or investigated by a prosecutor for illegal
acts he committed ultra vires and that pertain solely
to his records held by private businesses or
potentially his own businesses as well.
Other cases on which the Solicitor General
relies include U.S. v. Nixon and Clinton v. Jones, both
of which stand for the precise opposite proposition
than that which the Solicitor General is trying to
argue here. These cases hold that a sitting president
is not immune to judicial process. United States v.
Nixon, 418 U.S. at 713 (“The President's broad
interest in confidentiality of communications will not
be vitiated by disclosure of a limited number of
conversations preliminarily shown to have some
bearing on the pending criminal cases.”), Clinton v.
Jones, 520 U.S. 681, 696 (1997) (“With respect to acts
taken in his ‘public character’—that is official acts—
the President may be disciplined principally by
impeachment, not by private lawsuits for damages.
But he is otherwise subject to the laws for his purely
private acts.”). Indeed, U.S. v. Nixon is particularly
relevant in that it pertains to a criminal subpoena, as
is involved here, and the Court is clear that “a
generalized claim of the public interest in
confidentiality of nonmilitary and nondiplomatic
discussions would upset the constitutional balance of
‘a workable government’” and gravely impair the role
of the courts under Art. III.” 418 U.S. at 707.

17
In U.S. v. Nixon, the Court plainly confined the
need for presidential confidentiality to circumstances
in which the interests of national security demanded
it. Chief Justice Burger wrote, “Absent a claim of
need to protect military, diplomatic, or sensitive
national security secrets, we find it difficult to accept
the argument that even the very important interest
in confidentiality of Presidential communications is
significantly diminished by production of such
material for in camera inspection with all the
protection that a district court will be obliged to
provide.” U.S. v. Nixon, 418 U.S. at 707. The Solicitor
General cites the Nixon case as he does Clinton v.
Jones as if the case supports his argument when in
fact it holds precisely the opposite.
We previously expressed concerns about the
characterization of the history and the views of the
Framers on this matter. See supra Part IIA. The
mischaracterization of the case law in the Solicitor
General’s brief, however, raises the more serious
concerns about potential violations of professional
conduct rules. See Federal Rules of Civil Procedure,
Rule 11, ABA Model Rules of Professional Conduct,
Rule 3.3. (Candor to the Tribunal). The Solicitor
General characterizes open and hotly debated
questions of Constitutional law as settled law and
misleadingly suggests that cases that reject his
contention are in fact supportive.
Most importantly, the deference by the
Department of Justice to the President has nothing
whatsoever to do with the powers of the states to
prosecute the President. The fact that the Justice
Department chooses to adhere to its own OLC
memoranda does not mean that the State of New York
or its subdivisions cannot investigate the president in

18
the exercise of its police powers. In the absence of
exonerating conditions, shooting someone on Fifth
Avenue is a crime under the laws of the State of New
York. In a society that is governed according to the
rule of law, a person who without justification shoots
another person on Fifth Avenue must be investigated
and criminally charged for the public welfare. He is
no less dangerous because he is president and
exempting him from investigation and prosecution
would place him above the law.
C. The Assertion that a Sitting President

Cannot Be Indicted Does Not Entail that He
Cannot Be Investigated.

We have argued above that Article II does not
confer immunity from indictment on a sitting
president. Nevertheless, even if it did, that would not
entail a parallel immunity from investigation. The
argument linking the two makes little sense, given
that it is widely agreed, and the Solicitor General does
not contest, that a president can be prosecuted once
he leaves office. Solicitor General's Brief at 9. Yet for
practical purposes, an immunity to investigation
would create a de facto immunity to prosecution. The
opportunity to engage in timely investigation is
essential to gather the evidence needed for
prosecution. Furthermore, the President’s lawyers
argue that sending a subpoena to a private entity is
equivalent to subpoenaing the President himself,
casting the immunity net far and wide. Brief of
Petitioner,17.
Ironically, the Justice Department has already
conceded that the President can be investigated while

19
in office, given that it conducted a 17-month
investigation under the direction of Special Counsel
Robert Mueller. Despite the President’s strenuous
objections to that investigation, two Attorneys
General continued it and allowed it to come to
fruition. Indeed, Special Counsel Mueller obtained
evidence from the White House itself as well as from
private citizens who were associated with the
President’s businesses and/or his 2016 presidential
campaign. See John Dowd Memorandum on
Voluntary Document Production by the White House
(January 2018).
In sum, the Solicitor General cannot truly
mean that the President cannot be investigated while
in office. Instead, his argument suggests that a
president can only be investigated by the Justice
Department, namely an agency run by the Attorney
General who is appointed by, and serves at the
pleasure of, the President. The President who has
publicly described himself as “the chief law
enforcement officer” of the United States, is thus
effectively in charge of his own investigation. Toluse
Olorunnipa and Beth Reinhard, "Trump declares
himself 'chief law enforcement officer,'" Washington
Post, February 19, 2020. The Solicitor General
argues not only that the president is immune to
federal investigation, but also that no other criminal
investigation of the President or his associates could
be legal, despite the absence of any federal law or
judicial holding establishing a presidential immunity
of this magnitude. This Court is being asked by the
President not only to read the president’s immunity
from federal investigation as grounded in Article II,
but also that those same powers could impede any

20
state or county prosecutor from investigating the
President.
This broad interpretation of the concept of
presidential immunity is supported by no legal
precedent and little, if any, textual authority. Legal
scholars – even those embracing expanded notions of
executive power under the “unitary executive theory”
– have largely avoided claiming that Article II
bestows presidential immunity from investigation.
The one noted law review article on the topic
discusses exercise of restraint in investigating the
president as a policy issue, best addressed in a statute
that would define the limits of an investigation of the
president. See Brett Kavanaugh, "Separation of
Powers During the Forty-Fourth Presidency and
Beyond." 93 Minn. L. Rev. 1454 (May 2009).
Justice Kavanaugh’s policy preferences on
investigating a sitting president evolved between the
time he served as staff attorney for Independent
Counsel Kenneth Starr in the late 1990s to his views
in 2009 after serving nearly three years in the Bush
White House. In his 2009 Minnesota Law Review
article, Justice Kavanaugh concluded that “the
President’s job is difficult enough as is. And the
country loses when the President’s focus is distracted
by the burdens of civil litigation or criminal
investigation and possible prosecution.” Kavanaugh,
“Separation of Powers,” at 1462. It is important to
note that even Justice Kavanaugh does not ground his
argument against investigating a sitting president on
constitutional principles. Instead he proposes that
Congress "enact a statute providing that any personal
civil suits against presidents, like certain members of
the military, be deferred while the president is in

21
office." Id. at 1460. Justice Kavanaugh’s proposal
makes most sense against the background of the
assumption that Article II could not be the source of
any presidential immunity to investigation.
D. Presidential Claims of Immunity Should Be

Limited to Protecting the Ability of the
President to Defend National Security

As the previous Part argued, assertions of
absolute immunity on the part of the President are
not supported by the cases applying Article II in this
context. However, if such a claim of absolute
immunity were to be located somewhere in Article II,
it would be most appropriate as an interpretation of
the President’s war-making function. The President’s
power under Article II has always been understood to
be greater when he is acting in his capacity as
Commander in Chief. Hamdi v. Rumsfeld, 542 U.S.
507, 531 (2004) (“Without doubt, our Constitution
recognizes that core strategic matters of war-making
belong in the hands of those who are best positioned
and most politically accountable for making them.”).
The claim of absolute immunity is likely
unconstitutional in any context, but it would have its
greatest claim of legitimacy when the country is at
war or in cases of grave emergency. Neither the
President’s brief nor the Solicitor General’s Amicus
brief makes any mention of a national security
interest the immunity is intended to serve. The
Solicitor General’s brief affirms that the President is
bringing this action in his private capacity. Brief of
the Solicitor General at 3. A president cannot assert
a privilege that derives its logic from his role as

22
Commander in Chief at the same time that he is
acting as a private citizen suing in defense of an
assertion of personal rights.
Simply put, the
President should have no immunity from the criminal
process when he is acting in his capacity as a private
citizen and is represented by his personal lawyers, as
is the case here.
Indeed, in U.S. v. Burr, Marshall made clear
that the only basis for a president to resist a court
order would be national interest, but that could be
asserted by way of answer to a lawful subpoena in
defense of its execution.
If, upon any principle, the president
could be construed to stand exempt
from the general provisions of the
constitution, it would be because his
duties as chief magistrate demand his
whole time for national objects. But it
is apparent that this demand is not
unremitting; and, if it should exist at
the time when his attendance on a
court is required, it would be shown on
the return of the subpoena, and would
rather constitute a reason for not
obeying the process of the court than a
reason against its being issued.
25 F. Cas. 30, 34.
Note that the desire on the part of the president
to maintain “confidentiality” could never be a reason
for non-compliance with a court order, unless the
confidentiality was mandated by the national

23
interest, such as might be the case with highly
classified materials or state secrets. The President’s
tax returns and financial records are not the type of
documents whose revelation would threaten the
national interest. Moreover, since the proceedings of
the grand jury are secret, complying with the New
York subpoena would not expose the President’s
information to the public in any event.
The Solicitor General’s brief fails to identify the
holding of U.S. v. Burr correctly, despite the fact that
the President’s interest in this case is precisely the
“generalized
claim”
of
an
entitlement
in
confidentiality without any assertion of national
interest. In short, prior Supreme Court cases make
clear that a sitting president may not defeat a
subpoena in a criminal case on confidentiality
grounds unless there is a compelling national security
interest that requires it. Here, as in Nixon, there is
no such interest.
3. THE TENTH AMENDMENT PROTECTS THE RIGHT
OF STATES TO INVESTIGATE AND PROSECUTE
CRIMES WITHIN THEIR JURISDICTION
The Tenth Amendment provides that
“the powers not delegated to the United States by the
Constitution . . . are reserved to the States respectively
. . .” Tenth Amendment to the U.S. Constitution. This
Court has recognized that “Any doubt regarding the
constitutional role of the States as sovereign entities is
removed by the Tenth Amendment, which, like the
other provisions of the Bill of Rights, was enacted to
allay lingering concerns about the extent of the
national power.” Alden v. Maine, 527 U.S. 706, 713-

24
714 (1999). The Tenth Amendment has long been
understood to protect the rights of states to exercise
their “police powers” within their borders.
Moreover, since Erie v. Tompkins, it has been
understood that the Constitution “recognizes and
preserves the autonomy and independence of the
States.” Erie R.R. v. Tompkins, 304 U.S. 64, 78-79
(1938)) (quoting Justice Stephen Field in Baltimore &
Ohio R. Co. v. Baugh, 149 U.S. 368, 401). The right to
enforce the criminal law lies at the heart of this
autonomy. As this Court has found, “Under the
federal system the administration of criminal justice
rests with the States except as Congress, acting
within the scope of [its] delegated powers, has created
offenses against the United States. Screws v. United
States, 325 U.S. 91, 92 (1945).
The Solicitor General makes no reference to
these Tenth Amendment rights and instead
maintains that “the states have no power” to “retard,
impede, burden, or in any manner control” the
operations of the federal government” (quoting
McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 426,
436 (1819)), see Solicitor General's brief at 12. The
shibboleth of states’ rights, previously repeated by
political conservatives, has now been summarily
swept aside with not even a passing glance in the
direction of the main source of checks and balances on
the executive branch, namely the principle of
federalism. Yet the Solicitor General should have
noted that McCulloch is inapposite here, since that
case involved the supremacy of a Congressional
charter to create a national bank. The inability of the
states to interfere with the operations of a federal
bank created by statute has no bearing on the present
case where no statutory authority exists. There is

25
simply no basis for thinking that the Justice
Department guidance not to indict a sitting president
is robust against the valid right of the State of New
York to exercise its police powers for the security of
its citizens.
Furthermore, even when a federal statute
obtains, preemption cases still sometimes are decided
in favor of the states. This is particularly true when
state criminal laws are involved. As recently as March
3, 2020, this Court in Kansas v. Garcia, No. 17-834
slip op. (March 3, 2020) ruled that a state’s
prosecution of an illegal immigrant for identity theft
did not interfere with the federal government’s
enforcement of federal laws. The Garcia case has a
stronger federal claim relative to the state’s ability to
exercise its police power than in the present case. Yet
a majority of this Court, along with the Trump
Administration, sided with the state in Garcia. New
York’s claim to exercise its police powers is at least as
strong, if not stronger, than Kansas’ in Garcia.
Finally, the Solicitor General argues that with
over 2300 district attorneys nationwide, allowing
states to subpoena the president or his records “would
pose a serious risk of both harassment and diversion.”
Brief of the Solicitor General at 16. He argues, “The
risk of harassment is particularly serious when, as
here a State uses criminal process for the President
himself, not just to obtain evidence for use in the
prosecution of another.” Id. at 16. He says that “[i]n
routine criminal investigations, a prosecutor’s legal
and ethical obligations provide a sufficient check
against the prospect of abuse.” Id. However, he does
not explain why these same high standards of ethics
in investigations and prosecutions would not equally

26
apply to an investigation of the President or his
businesses. See e.g. ABA Model Rule 3.8 (Special
Responsibilities of a Prosecutor); New York Rules of
Professional Conduct, Rule 3.8. See also Criminal
Justice Standards for the Prosecution Function
(American Bar Association, Fourth Edition 2017).
Both federal and state courts rein in prosecutors who
pursue defendants solely for purposes of harassment,
and a demonstration of any such motive could subject
a prosecutor to discipline for violating ethics rules.
The Solicitor General has pointed to no evidence
whatsoever that the prosecutor in this case was
motivated solely by the desire to harass and
inconvenience the President. To suggest that state
prosecutors could only be motivated by malice were
they to subpoena a sitting president is insulting to the
many honorable state and local district attorneys and
states attorneys general.
The President is asking this Court to curtail
the police powers of the State of New York for the
purpose of protecting a personal interest on the part
of the President. While true conflicts of federalism
between a state and the Executive branch may arise,
this case does not truly represent such a conflict.
Instead, the case is only about the personal interest
of the President in preventing himself or his
companies from being investigated.

27
4. IT IS INAPPROPRIATE FOR THE PRESIDENT TO
ASSERT IMMUNITY WITH REGARD TO STATE
CRIMINAL
LAW
PROCESSES
CONDUCTED
AGAINST THIRD PARTIES
Most of the subpoenaed documents in this case
are in the custody of a third-party firm that performs
accounting services for the Trump businesses. These
documents pertain to the President’s personal
finances as well as the finances of various Trump
corporations, LLCs, and other business entities.
It is widely recognized that corporations,
limited liability companies (LLCs) and similar
entities are persons under the law. Trustees of
Dartmouth College v. Woodward, 17 U.S. 518 (1819).
The separate personhood of corporate entities meant
that the creditors of Donald Trump had no recourse
when hundreds of millions of dollars in loan
obligations defaulted, with the result that efforts of
plaintiff bondholders to sue Trump and certain
affiliates for securities fraud were unsuccessful. In Re
Donald J. Trump Casino Securities Litigation. 7 F.3d
357 (3d Cir. 1993). Most of these creditors were never
paid.
Creditors in the 1990s could not pierce the
corporate veil but in 2020 the claim of absolute
presidential immunity is said to apply to private
entities, even those not owned by Donald Trump. If
the present assertion of absolute immunity is allowed
to stand, Trump’s entire corporate empire will be
entitled to the expansive powers and immunities of
the President. The President’s request to this Court
to distort Article II beyond recognition for the purpose
of bestowing broad immunity on both himself and his

28
closely associated business entities should not be
supported by the Solicitor General purporting to
represent the interests of the United States.
Expanding the scope of “presidential” immunity to
this degree would contribute substantially to an everincreasing conception of executive power. Such a
revision of the traditional scope of presidential
authority would clearly not be in the nation’s interest.
5. THE ARGUMENT THAT THIS INVESTIGATION WILL
IMPAIR THE PRESIDENT’S PERFORMANCE OF
OFFICIAL DUTIES IS NOT CREDIBLE.
If, as he claims, the President is no longer
involved in the day-to-day management of these
Trump Organization entities, and with most of the
responsive documents being in the custody of a thirdparty, compliance with the Respondents’ subpoenas
could not possibly have an impact on the performance
of the President’s official duties, except to the extent
that exposing his financial records could lead to direct
subpoenas or even the possible prosecution of the
President.
The President has to do little or nothing to
comply with the subpoenas, given that they are issued
to a third party. If at some later point in time the
investigation involves a deposition of the President or
other discovery that he believes imposes a substantial
burden and interferes with his ability to perform his
official duties, a court can address the appropriate
scope of discovery at that time. Until then, Justice
Scalia’s remarks in oral argument in Clinton v. Jones
are still pertinent:

29
“Why can't we wait until the President
asserts such a conflict? It's never
happened in a couple of hundred years.
Why can't we wait until the court says,
''Mr. President, I want you here for this
deposition, and if you don't come, you're
going to lose the case.'' And the
President says, ''I'm sorry, I have to go
to a NATO meeting.'' Why don't we
wait for that, what seems to me, very
unlikely situation to arise?
...
if and when a President has the
intestinal fortitude to say, ''I am
absolutely too busy'' –so that he'll never
be seen playing golf for the rest of his
Administration [laughter] –if and
when that happens, we can resolve the
problem. But really, the notion that he
doesn't have a minute to spare is just
not credible.”
See Tr. Of Oral Arg. at 20:23-24-21:1-7 in Clinton v.
Jones, 520 U.S. 681 (Questions from Justice Scalia).
The Solicitor General has not pointed to any
specific discovery request by the Manhattan District
Attorney that would take any of the President’s time,
directed, as it is to a third party. Authorizing his
accountants to release his financial records in
response to the subpoena will take less of the
president’s personal time than a single round of golf.

30

CONCLUSION
This case concerns only the interests of private
parties and does not have any impact on the United
States. The Solicitor General is incorrect in his
argument that Article II of the Constitution bestows
immunity from criminal investigation by state and
local prosecutors upon the President, separate
corporate entities, and third parties in possession of
their records. Reversing the trend towards ever
greater executive powers that became such an abiding
feature of the post-9/11 security state has made the
United States substantially less secure and is
increasingly the greatest source of threat to its
democracy.
Respectfully submitted,
RICHARD W. PAINTER
S. Walter Richey Professor of Corporate Law,
University of Minnesota,

Counsel of Record
229 19th Avenue South
Minneapolis, MN 55455
612-626-9707
rpainter@umn.edu

Counsel for Amici Curiae

